        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
Area Community Services
Employment and Training Council –
Weatherization Assistance Program
Funds Provided by the American
Recovery and Reinvestment Act of
2009




OAS-RA-13-23                        June 2013
                                  Department of Energy
                                    Washington, DC 20585
                                           June 18, 2013


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY
                 AND RENEWABLE ENERGY



FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Examination Report on "Area Community Services
                         Employment and Training Council − Weatherization Assistance
                         Program Funds Provided by the American Recovery and Reinvestment
                         Act of 2009"

BACKGROUND

The attached report presents the results of an examination of the Area Community Services
Employment and Training Council (ACSET) Weatherization Assistance Program
(Weatherization Program) under the American Recovery and Reinvestment Act of 2009
(Recovery Act). The Office of Inspector General contracted with an independent certified public
accounting firm, Lani Eko & Company, CPAs, PLLC (Lani Eko), to express an opinion on the
agency's compliance with Federal and state laws, regulations and program guidelines applicable
to the Weatherization Program. ACSET is a sub-recipient of the Department of Energy's
(Department) Recovery Act Weatherization Program funding for the State of Michigan.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the
Weatherization Program received $5 billion to reduce energy consumption for low-income
households through energy efficient upgrades. The State of Michigan received over $250
million in Weatherization Program Recovery Act grant funding, of which $3.58 million was
allocated to ACSET. The State of Michigan's Bureau of Community Action and Economic
Opportunity under the Department of Human Services was responsible for administering
Weatherization Program grants, including funds provided to ACSET.

RESULTS OF EXAMINATION

Lani Eko expressed the opinion that, except for the weaknesses described in its report, ACSET
complied in all material respects with the requirements and guidelines relative to the
Weatherization Program for the period April 1, 2009 to February 28, 2011. However, the
examination found that ACSET had not:

   •   Properly verified applicant and unit eligibility;
                                                2


   •   Ensured initial weatherization services provided, and subsequent re-work performed, met
       the quality of work standards of the Weatherization Program; and

   •   Maintained proper documentation sufficient to ensure compliance with Weatherization
       Program requirements as they specifically apply to final inspections.

The attached report makes recommendations to ACSET to improve the administration of its
Weatherization Program. ACSET provided responses that expressed agreement with the
recommendations, and provided planned and ongoing actions to address the issues identified.
While these responses and planned corrective actions are responsive to our recommendations,
the Department needs to ensure the planned actions are completed.

RECOMMENDATION

We recommend that the Assistant Secretary for Energy Efficiency and Renewable Energy:

   •   Ensure appropriate action is taken by the State of Michigan to improve ACSET's
       administration of its Recovery Act Weatherization Program funds.

DEPARTMENT COMMENTS AND AUDITOR RESPONSE

The Department concurred with the recommendation outlined in this memorandum. The
Department credited the State's process improvements related to billing, eligibility
determinations, and trend analysis as well as the local agency's actions taken to address
recommendations. The Department reviewed these actions during its routine visit in January
2013 and will continue to monitor these actions as part of its grant oversight responsibility.

ACSET contends that it is in compliance, in all material respects, with the elements of the
Department's Weatherization Program under the Recovery Act and has corrected any omissions
or errors in procedure or reporting through the implementation of new and/or enhanced
procedures. Lani Eko credited the agency for its actions, as appropriate.

EXAMINATION LEVEL ATTESTATION

Lani Eko conducted its examination in accordance with attestation standards established by the
American Institute of Certified Public Accountants as well as those additional standards
contained in Government Auditing Standards, issued by the Comptroller General of the United
States. The examination-level procedures included gaining an understanding of ACSET's
policies and procedures and reviewing applicable Weatherization Program documentation. The
procedures also included an analysis of inspection results, records of corrective actions and re-
inspections of completed homes/units to ensure any failures were properly corrected. Finally, an
analysis of associated cost data was performed to test the appropriateness of payments.

The Office of Inspector General monitored the progress of the examination and reviewed the
report and related documentation. Our review disclosed no instances in which Lani Eko did not
comply in all material respects with the attestation requirements. Lani Eko is responsible for the
attached report dated June 28, 2012, and the conclusions expressed in the report.
                                  3


Attachments

cc:   Deputy Secretary
      Under Secretary of Energy
      Acting Chief of Staff
                                                        Attachment 1




   Report on Examination Level Attestation Engagement

                           Of

Area Community Services Employment and Training Council

  Recovery Act Weatherization Assistance Program Funds



       Performed for the U.S. Department of Energy
               Office of Inspector General

                         Under

            Contract Number: DE-IG0000015
            Work Order Number: 10-215-09



                           By



           Lani Eko & Company, CPAs, PLLC



                      June 28, 2012
                                                                                          Attachment 1 (continued)



                                            TABLE OF CONTENTS



INDEPENDENT ACCOUNTANT'S REPORT ..............................................................1


DESCRIPTION OF AREA COMMUNITY SERVICES EMPLOYMENT &
TRAINING COUNCIL WEATHERIZATION ASSISTANCE PROGRAM ..............2


CLASSIFICATION OF FINDINGS ................................................................................3


SUMMARY OF FINDINGS .............................................................................................4


SCHEDULE OF FINDINGS ............................................................................................5


MANAGEMENT RESPONSE .......................................................................................12
                                                                       Attachment 1 (continued)




                              Independent Accountant's Report

To the Inspector General, U.S. Department of Energy:

We have examined the Recovery Act Weatherization Assistance Program funds awarded by the
State of Michigan to the Area Community Services Employment & Training Council (ACSET)
for the period April 1, 2009 through February 28, 2011. ACSET is responsible for operating the
Weatherization Assistance Program in compliance with applicable Federal and State laws,
regulations, and program guidelines. Our responsibility is to express an opinion based on our
examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants and the U.S. Government Accountability
Office; and, accordingly, included examining, on a test basis, evidence supporting management's
compliance with relevant Weatherization Assistance Program Federal and State laws,
regulations, and program guidelines, and performing such other procedures as we considered
necessary in the circumstances. We believe that our examination provides a reasonable basis for
our opinion.

Because of inherent limitations in any internal control structure or financial management system,
noncompliance due to error or fraud may occur and not be detected. Also, projections of any
evaluation of compliance to future periods are subject to the risk that the internal control
structure or financial management system may become inadequate because of changes in
conditions or that the degree of compliance with the policies and procedures may deteriorate.

In our opinion, except for the weaknesses described in Section IV of this report, ACSET
complied, in all material respects, with the aforementioned requirements and guidelines relative
to the Weatherization Assistance Program funds awarded to ACSET for the period April 1, 2009
through February 28, 2011.




June 28, 2012
Alexandria, Virginia




                                                                                            1
                                                                        Attachment 1 (continued)


       SECTION I. Description of Area Community Services Employment & Training
                     Council Weatherization Assistance Program

The U.S. Department of Energy (Department) awarded $250,361,024 to the State of Michigan to
allocate among its network of 31 local governments and various nonprofit organizations
participating in the Weatherization Assistance Program (Weatherization Program). From this
award, $5,568,123 was initially allocated to the Area Community Services Employment and
Training Council (ACSET) to assist with the costs of weatherizing approximately 793 homes.
Based on a re-assessment of ACSET's capacity to provide weatherization services, this amount
was reduced to $3,757,000 to weatherize an adjusted target of 578 homes.

In Michigan, the Weatherization Program is administered by the State Department of Human
Services (DHS). ACSET partners with DHS to operate the Weatherization Program. In
accordance with the terms of this agreement, ACSET is responsible for determining applicant
eligibility and taking the necessary steps to weatherize the applicant's home. These steps include
procurement of contractor services as well as conducting home assessments and inspections.

The Weatherization Program helps eligible low-income households lower their energy costs by
increasing energy efficiency. The primary focus is on the problems of heat loss and air
infiltration. Energy conservation and efficiency methods utilized by the Weatherization Program
include measures that reduce energy consumption and the cost of maintenance for weatherized
homes. In addition to the material improvements, energy conservation education is provided to
participants. For the period from April 1, 2009 through February 28, 2011, ACSET reported that
it had completed weatherization of 188 units under the Weatherization Program.




                                                                                             2
                                                                       Attachment 1 (continued)


                            SECTION II. Classification of Findings


The findings in this report are classified as follows:


Material Weakness

For purposes of this engagement, a material weakness is a significant deficiency, or combination
of significant deficiencies, that results in more than a remote likelihood that a material
misstatement of the subject matter will not be prevented or detected.

Advisory Comment

For purposes of this engagement, an advisory comment represents a control deficiency that is not
significant enough to adversely affect ACSET's ability to record, process, summarize, and report
data reliably. The advisory comment presented represents matter that came to our attention
during the course of the review and is offered to ACSET's management as an opportunity for
improvement. The advisory comment is provided along with suggestions and discussion of the
significance of the comments.




                                                                                            3
                                                                    Attachment 1 (continued)


                           SECTION III. Summary of Findings


1. Eligibility for Weatherization Services Under the Recovery Act – Material Weakness

2. Quality of Work – Material Weakness

3. Recordkeeping for Work Performed – Advisory Comment




                                                                                        4
                                                                        Attachment 1 (continued)


                             SECTION IV. Schedule of Findings


Finding 1. Eligibility for Weatherization Services Under the Recovery Act −
           Material Weakness

Condition A – Applicant Eligibility

We determined that weatherization services may have been provided to an applicant who was not
eligible for weatherization assistance under the requirements of the American Recovery and
Reinvestment Act of 2009 (Recovery Act). Specifically, of the 45 files tested, we noted one
instance in which the applicant's household income, as part of a single-family dwelling unit,
exceeded the allowable maximum household income under the Recovery Act and DHS
guidelines. The DHS's Community Service Policy Manual (CSPM), which is consistent with
Federal requirements, defines an eligible applicant for the Weatherization Program as an
applicant whose household income does not exceed the higher of 60 percent of the State of
Michigan median income or 200 percent of the current poverty income guideline. However, the
applicant's household income of $47,918 exceeded the poverty guideline by $3,818 and the State
of Michigan median income limit by $2,087. In this instance, ACSET erroneously used the
guidelines of the Michigan Public Service Commission (MPSC), which has an income ceiling of
250 percent of the current poverty income level. ACSET acknowledged that weatherization of
this home should have been completed using MPSC funds.

Following the initial identification of the ineligible applicant, ACSET provided documentation
that weatherization costs associated with this client file were reallocated to the Energy
Optimization fund.

Condition B – Dwelling Designated for Acquisition or Clearance

ACSET may have weatherized homes or dwellings that were designated for clearance or
acquisition. Per DHS's CSPM, which is consistent with Federal requirements, a home that is
designated for acquisition or clearance by a Federal, state, or local program within 12 months of
the date weatherization services are completed may not be weatherized. This requirement is
included on the ACSET client intake application as a question to the applicant. The applicant is
required to respond to the question based on the facts available to the applicant at the time the
application is completed. Out of 45 files tested, we noted four instances where the applicants did
not respond to this question on the intake applications. ACSET did not have a procedure in place
to independently verify accuracy of the applicant's response.

Subsequent to our review and upon notification of this finding, ACSET contacted the four
applicants and obtained current tax records which indicate that the applicants still have
ownership of the homes that received weatherization services.




                                                                                             5
                                                                        Attachment 1 (continued)


                          SECTION IV. Schedule of Findings (Cont.)



Cause

The deficiencies noted regarding compliance with dwelling unit and applicant eligibility, as well
as cost of services for multi-family units requirements may be attributed to ACSET's lack of
effective review and verification of applicants' intake applications.


Effect

We are questioning $6,300 reimbursed to ACSET for weatherization services on a dwelling unit
occupied by an ineligible applicant, as discussed in Condition A.

Because of this identified lack of controls, there is an increased risk that ACSET is providing
weatherization services to ineligible applicants and dwelling units, thereby, reducing the amount
of Recovery Act funds available for eligible applicants and dwelling units.


Recommendations

We recommend that ACSET:

1.1      Implement procedures in the intake process to ensure that intake specialists review and
         verify client applications for completeness and accuracy; and,

1.2      Works with DHS to address the costs questioned in this finding.




                                                                                             6
                                                                     Attachment 1 (continued)


                        SECTION IV. Schedule of Findings (Cont.)


Management Comments

Regarding review and verification of client applications, ACSET officials acknowledged that
the weatherization job in question was mistakenly charged to the Department's Recovery Act,
and has reportedly removed all costs related to the job from the Recovery ACT funds and
applied the charges to other non-state or federal funding. In addition, ACSET has implemented
the State's new database, FACS Pro, that it believes will reduce the future risk of providing
weatherization services to ineligible applicants.

In response to our concerns regarding dwellings designated for acquisition or clearance, ACSET
verified that the homes in question had not been acquired or demolished. In addition, officials
informed us the implementation of the FACS Pro data base currently will not allow applications
to be processed without the verification of acquisition and clearance information.

Auditor Response

Management's comments are responsive to our recommendations.




                                                                                          7
                                                                         Attachment 1 (continued)


                          SECTION IV. Schedule of Findings (Cont.)


Finding 2. Quality of Work – Material Weakness

Condition:

During our site visits to 13 completed dwelling units, we noted 5 instances totaling about
$27,000, in which deficiencies in the quality of work identified by DHS and ACSET personnel
required re-work.

Specifically, DHS and ACSET noted:

    •    Wall cavities with voids, indicating insufficient insulation;

    •    Unsupported costs related to window repairs and glass installation;

    •    Contractor billing for weatherization services not performed, or incorrect Recovery Act
         billing for wrong insulation materials;

    •    Improper installation of doors; and,

    •    Homes not sealed to the required level, as indicated by blower door test in excess of
         allowable National Energy Audit Tool (NEAT) measures.

Subsequent to our review and upon notification of this finding, ACSET released work orders to
contractors that performed weatherization services in dwelling units in which workmanship
issues were identified during physical site visits. Re-work was performed without cost to
ACSET. Additionally, ACSET provided completed Findings Reports as evidence that re-work
was completed.

Cause

ACSET did not ensure initial weatherization services provided and subsequent re-work
performed met the quality of work standards of the Weatherization Program. This occurred
because ACSET had not performed trend analysis to identify systemic or repeated quality of
workmanship issues. Also, ACSET had not analyzed the quality of workmanship problems to
determine if selected contractors were responsible for the majority of quality of workmanship
errors.

Effect

Lack of quality workmanship could pose health and safety risks to residents, hinder production,
and increase Program costs.


                                                                                            8
                                                                     Attachment 1 (continued)


                        SECTION IV. Schedule of Findings (Cont.)


Recommendation

We recommend that ACSET:

2.1    Perform a trend analysis of the rework orders and the contractors performing the work to
       identify recurring quality of workmanship issues.


Management Comments

Subsequent to our audit, ACSET required its contractors to correct the deficiencies noted at no
cost to the agency. In addition, ACSET believes it has appropriate controls in place to ensure
quality workmanship.


Auditor Response

Management's comments and actions taken are responsive to our finding.




                                                                                          9
                                                                        Attachment 1 (continued)


                          SECTION IV. Schedule of Findings (Cont.)


Finding 3. Recordkeeping for Work Performed - Advisory Comment

Condition:

We noted several instances where ACSET failed to maintain proper documentation sufficient to
ensure compliance with Weatherization Program requirements. Specifically, we noted the
following deficiency in ACSET's recordkeeping as it pertains to final inspections:

   •     Of the 45 dwelling units tested, we were unable to determine in 12 instances whether the
         final inspection was completed prior to billing DHS for costs incurred for weatherization
         services.

Under ACSET's weatherization agreement with DHS and in accordance with Federal
requirements, ACSET is required to perform a final inspection of each dwelling unit before the
job can be reported to DHS as complete and eligible for reimbursement. Consistent with Federal
requirements, the final inspection must be signed and dated by the individual(s) trained and
authorized to complete these inspections to ensure that the weatherization services have been
provided in a quality manner.

Subsequent to our review and upon notification of this finding, ACSET provided evidence to
more fully illustrate their process for installing, inspecting, remitting payment, and requesting
reimbursement for weatherization measures. ACSET uses multiple levels of review to ensure
weatherization clients receive consistent services, including a secondary Quality Assurance
review conducted after the initial Department Weatherization Post Inspections have taken place.
As a result of our review, ACSET has reformatted the inspection form utilized for its secondary
Quality Assurance reviews to distinguish this level of review from the initial inspection required
for the Department.

Cause

ACSET management did not ensure that final inspection procedures met recordkeeping
requirements as a sub-grantee of State DHS and a recipient of Recovery Act funds.

Effect

As a result of ACSET's lack of adequate records for final inspections, there is an increased risk
that post inspections may not be performed in compliance with program rules and regulations.
Additionally, there is an increased risk that State DHS may be billed for weatherization costs
incurred prior to completion of the final inspection.




                                                                                             10
                                                                        Attachment 1 (continued)
                         SECTION IV. Schedule of Findings (Cont.)


Recommendations

We recommend that ACSET:

3.1    Update post inspection control procedures to ensure proper documentation is maintained
       in the client file to facilitate audit and performance evaluation.

3.2    Maintain sufficient, competent, and relevant records of the post inspection process for
       billing submitted to State DHS for reimbursement with Recovery Act funds.


Management Response

ACSET stated that their final inspection procedures met recordkeeping requirements as a sub-
grantee of State DHS and a recipient of Recovery Act funds. Additionally, the implementation
of the new state Weatherization Data Base (FACS Pro) during 2011 has provided assistance in
standardizing information and provides another level of security in ensuring client eligibility,
verification requirements, and work status.


Auditor Response

Per Department requirements, homes must be free of defect prior to reporting them as complete
and requesting reimbursement. Based upon our review of both initial and quality assurance
inspection reports, it was unclear whether all weatherization measures had been properly
installed prior to billing the State. We recognize the process improvements made by ACSET
subsequent to our audit and have credited ACSET for their actions taken.




                                                                                             11
                                                                                                     Attachment 1 (continued)

                                          SECTION V. Management Response

 O
 a Action
        PARTNERSHIP
                                                 AREA COMMUNITY SERVICES EMPLOYMENT &
                                                        TRAINING Council (ACSET)
        Helping People. Changing Lives.                  Community Action Agency
September 19, 2012

TO:              Lani Eko at Lani Eko and Company CPAs, PLLC

FROM:            Sylvia L. Hopson, ACSET Executive Director

SUBJECT:         ACSET's Response to Auditors Report

              Per your request, please review Area Community Services Employment & Training Council's (ACSET's)
              Management Response to the Examination Report of Lani Eko & Company in regard to their evaluation of
              ACSET's program records and documentation for the U.S. DOE Weatherization Recovery Act Funds for the
              period April I, 2009 through February 28, 2011.

               ACSET's Management contends that it is in compliance in all material respects with all elements of the U.S.
               DOE Weatherization Recovery Act for the time period Lani Eko conducted its evaluation. There are no
               Material Weaknesses or Deficiencies in ACSET's administration or performance of the Recovery Act
               Weatherization Assistance Program. Any omissions or errors in procedure or reporting at the time of the
               evaluation have been addressed by new and/or enhanced procedures for proper checks and balances to
               comply with the Federal Regulations, and all items have been corrected and/or completed. To simplify your
               review process, ACSET's responses will be in the same order as the Lani Eko comments regarding their
               Findings.

               Boldfaced print in blue is information taken from the Lani Eko Examination Report, received via
               email by Karen Tolan, ACSET Associate Director, Community Action Agency, April 5, 2012.

              SECTION IV. Schedule of Findings

              Finding I. Eligibility for Weatherization Services Under the Recovery Act- Material Weakness

              Condition A - Applicant Eligibility

              ACSET Response

              ACSET acknowledged that this particular weatherization job was mistakenly charged to DOE ARRA, and has
              subsequently removed all costs related to the job from the Recovery ACT funds and applied the charges to
              other non-state or federal funding. Proof of this removal of costs was provided to Lani Eko, April, 2012.
              Implementation of the FACS PRO data base in Michigan, utilized by ACSET, currently prevents this type of
              occurrence. With the removal of these costs, no cost will need to be disallowed. Therefore, it appears no
              further action is warranted.




                                                                                                                     12
                                                                                Attachment 1 (continued)


                         SECTION V.          Management Response (Cont.)


Condition B- Dwelling Designated for Acquisition or Clearance

ACSET Response

ACSET, subsequent to initial evaluation by Lani Eko, verified all four of these homes still exist, were owned
by the same individuals who applied for the weatherization assistance program and there are no plans for
acquisition or clearance at this time, which is beyond the 12 month period of time as required by the grant.
ACSET policy has been updated and the implementation of the FACS PRO data base currently will not allow
application to be processed without the verification of this information. Therefore, it appears no further
action is warranted.
Condition C - Conflicting Guidance on Weatherizing Multi-Family Units

ACSET Response

ACSET maintains that weatherization measures and costs incurred on the referenced units are in
compliance with mandates provided to us. There should be no disallowed costs.


Finding 2. Quality of Work - Material Weakness Condition

ACSET has for some time (prior to Lani Eko examination) been evaluating the quality of workmanship,
professionalism and verification of completion of work as invoiced on WAP jobs. Information such as length
of time for work from issuance to completion, number of re-work jobs by contractor, client complaints per
contractor are only a few of the areas of information that are compiled and evaluated. ACSET identified
through this process a contractor and two inspectors who were not meeting ACSET's quality expectation
levels in one or more areas and those identified no longer perform any work for the agency. With our own
internal "quality control" evaluations, homes were identified that were deficient in either completion of work
or quality of work. In some cases ACSET had a different contractor complete any deficiencies. In no cases
were additional costs charged to the program.

ACSET 's Management position is that there should be no disallowed costs as work/re-work has been
completed and passed final inspections subsequent to Lani Eko's on site evaluations. Therefore, it appears no
further action is warranted.

In concluding, ACSET strives for excellence in remaining in compliance with the requirements of all awarded
grants following established principles for governmental accounting and financial management policies in
addition to proper procedure in direct services, such as that required in the Recovery Act Weatherization
Program. If an inconsistency is noted through ACSET's internal controls or the monitoring of programs by
DHS or other outside agencies, we evaluate the steps needed to fulfill our responsibilities and go beyond
contract requirements if we deem this necessary to maintain proper adherence to contract requirements and
responsibilities.


Finding 3. Record-keeping for Work Performed

ACSET Response

ACSET did ensure that final inspection procedures met recordkeeping requirements as a sub grantee of State
DHS and a recipient of Recovery Act funds. The audit team, however, being unfamiliar with our process,
interpreted our documentation differently than intended. ACSET supplied spread sheets indicating date
sequence evidencing our compliance in our written response to audit draft of 4/20/2012.


                                                                                                         13
                                                                                                    Attachment 1 (continued)


                                 SECTION V. Management Response (Cont.)

  Additionally, the implementation of the new state Weatherization Data Base- FACSPro implemented
  last year, has provided assistance in standardizing information, and provides another level of security in
  ensuring client eligibility, verification requirements, work status, etc.

  ACSET values this auditing process because it enhances our systems and procedures and contributes to
  ACSET being even a stronger Agency. So, should the Office of Inspector General need any additional
  information from ACSET, please let us know.




                                1 550 Leonard St. NE • Grand Rapids, M l 49503
ACSET Council Administration • Phone (616) 336-4100 • Fax (616) 336-41 18 •TDD (616) 336-4040 •www.communityactionkent.org
 ACSET is an Equal Opportunity Employer/Program. Auxiliary aids and services are available upon request to individuals with disabilities




                                                                                                                                  14
                      Attachment 2


DEPARTMENT COMMENTS
                                                                 IG Report No. OAS-RA-13-23


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
Internet at the following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
